HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Veritus Medicare Services,"(A-05-03-00035)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative
Responsibility of Veritus Medicare Services," (A-05-03-00035)
July 16, 2003
Complete Text
of Report is available in PDF format (199 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of
this audit was to determine the extent of ineligible Medicare Skilled Nursing
Facility (SNF) payments contained in the database of payments made under the
administrative responsibility of Veritus Medicare Services (Veritus).  We
estimated that $6.3 million of ineligible SNF payments were made under the administrative
responsibility of Veritus during calendar years 1997 through 2001.  The
overpayments occurred because of the absence of an automated cross-check, within
the Centers for Medicare and Medicaid Services's Common Working File and the
Fiscal Intermediary’s claims processing systems, verifying that a three consecutive
day inpatient hospital stay occurred prior to SNF admission.  Veritus generally
agreed with our recommendation to initiate recovery actions, however, they disagreed
with our recommendation for provider education.